Report No. D-2007-091      May 4, 2007




  Memorandum Report on Assessment of
Defense Accounts Payable Compliance with
 Generally Accepted Accounting Principles
Additional Copies

To obtain additional copies of “Memorandum Report on Assessment of Department
of Defense Accounts Payable Compliance with Generally Accepted Accounting
Principles”, visit the Web site of the Department of Defense Inspector General at
http://www.dodig.mil/audit/reports or contact the Secondary Reports Distribution
Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Future Audits

To suggest ideas for or to request future audits, contact the Office of the Deputy
Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
604-8932. Ideas and requests can also be mailed to:

                     ODIG-AUD (ATTN: Audit Suggestions)
                     Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                           Arlington, VA 22202-4704
                                  INSPECTOR GENERAL

                                DEPARTMENT OF DEFENSE

                                   400 ARMY NAVY DRIVE

                              ARLtNGTON, VIRGINIA 22202-4704



                                                                                       May 4, 2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE (COMPTROLLER) / CHIEF
                 FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE ARMY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                  MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE LOGISTICS AGENCY
               DIRECTOR, DEFENSE COMMISSARY AGENCY
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE


SUBJECT: Memorandum Report on Assessment of Department of Defense Accounts Payable
         Compliance with Generally Accepted Accounting Principles
         (Report No. D-2007-091)

        We performed audit work to assess the ability of DoD's accounting systems to process,
account for, and report Accounts Payable in accordance with generally accepted accounting
principles during the period from December 2005 through November 2006. Weare providing
this memorandum report for your information and use. No written response to this memorandum
report is required.

      We appreciate the courtesies extended to our audit staff. Questions should be directed to
Ms. Amy Frontz at (303) 676-7392 (DSN 926-7392) or Mr. M. James Herbie at (303) 676-3280
(DSN 926-3280). The team members are listed on the final page of this memorandum report.

What We Found
This memorandum contains information on the inability of the Department of Defense to identify,
process, record, and report Accounts Payable in accordance with generally accepted accounting
principles because of material internal control deficiencies. DoD management has not implemented
control activities or internal controls over financial reporting related to Accounts Payable that
effectively correct or compensate for the following control deficiencies.

   •	   Components are unable to identify intragovernmental transactions by customer; the
        Components cannot assure they are properly eliminating or disclosing all intragovernmental
        Accounts Payable in the financial statements; and, the Components adjust their non-DoD
        intragovernmental Accounts Payable amounts to agree to seller-side balances for financial
        statement reporting. As a result, reported Accounts Payable balances do not agree with
        transaction detail in supporting accounting systems.
   •	 The actual or constructive receipt or acceptance of goods and services should be the basis for
      recording Accounts Payable. Internal controls are not adequate to ensure the Components
      always follow this policy.
   •	   Procedures for accounting recognition of unbilled purchases of goods and services are not
        adequate.
   •	 DoD records and reports Accounts Payable balances in its financial statements without
      reconciling to transactional detail in supporting accounting systems.
   •	   Aged Accounts Payable are not reviewed to identify and resolve balances that may no longer
        be valid or warrant investigation.
DoD will not be able to report Accounts Payable in compliance with generally accepted accounting
principles (GAAP) without correcting these material internal control weaknesses.


What We Did
We assessed the design and operation of DoD internal controls for both Accounts Payable
(a) Intragovernmental (Federal) and (b) Public (non-Federal). We considered applicable control
activities and internal controls over financial reporting used by the Departments of the Army, Navy,
and Air Force, the Defense Finance and Accounting Service (DFAS), the Defense Commissary
Agency, and the Defense Logistics Agency. Based on the first quarter FY 2006 reported amounts,
Accounts Payable for these Components were more than 70 and 64 percent of the Federal and non­
Federal amounts, respectively. We made site visits to various DFAS and military Department
financial management office locations to conduct interviews and to test controls. We identified
previously reported Accounts Payable deficiencies and inquired with responsible management
officials as to the status of improvements and corrections.

During this project, the annual Chief Financial Officer (CFO) financial statement reporting and audit
cycle occurred. In connection with our audits of their financial statements, DoD financial
management officials from each of the Military Departments made written representations to us
concerning their internal controls. Their representations gave us indications of significant risks that
the Accounts Payable disclosures were materially misstated in the financial statements. DoD
reported certain Accounts Payable deficiencies as overall material weaknesses and as an overall
systemic weakness in its Performance and Accountability Report FY 2006 with which we concur.
This memorandum provides additional information and examples found during our assessment
regarding the Accounts Payable overall systemic weakness. We will not issue a separate formal
audit report.

Examples of Noncompliance with GAAP

         i. Management Representations. According to the FY 2006 CFO audit representations made
by the Deputy Assistant Secretary of the Army (Financial Operations), the Assistant Secretary of the
Navy (Financial Management and Comptroller), and the Principal Deputy Assistant Secretary of the
Air Force (Financial Management), these Components cannot always accurately identify all
intragovemmental transactions and balances by customer. Therefore, there is no assurance for
financial reporting that DoD can identify, eliminate, or disclose all transactions occurring between
entities within DoD or between DoD and other Federal agencies. The Components also
acknowledged that they adjust their intragovernmental Accounts Payable amounts to agree to
balances provided by their seller-side trading partners. Adjustments to agree with non-DOD trading
partners are not allowed by the DoD Financial Management Regulation. Accordingly,
intragovernmental Accounts Payable balances reported in the Components' financial statements do
not agree with transaction detail in supporting accounting systems. The Navy acknowledged that
General Fund Intragovernmental Accounts Payable (such as fuel payables and non-Power Track
transportation) and Accounts Payable to the Public for the General Fund are not being recorded
timely, completely, or accurately. As a result, existing accounting procedures create abnormal
balances in these financial statement line items that are not resolved. Until the Components correct
these deficiencies, there is a significant risk that the DoD Accounts Payable disclosure in its financial
statements is materially misstated.

         ii. Accounts Payable for Air Force Travel Expenses. Air Force accounting systems
recognize employee travel expenses for accounting purposes before they occur. When an authorized
official approves a travel authorization, system processing recognizes an Accounts Payable the next
day. This recognition is premature as the goods and services authorized have not been received. The
accounting recognition of undelivered goods and services results in reporting Accounts Payable
balances in its financial statements that do not reconcile to supporting Accounts Payable systems.

         iii. Standard Accounting Budgeting Reporting System (SABRS). The Marine Corp SABRS
system processes and accounts for Accounts Payable. Accurate dates for the receipt of goods and
services are available in the Wide Area Workflow interface system. However, SABRS does not use
these dates in recognizing Accounts Payable. This results in recording Accounts Payable at a date
later than the actual or constructive receipts of purchased goods and services, which is not in
compliance with GAAP. After the completion of our fieldwork, DFAS advised us that it
implemented a system change request to allow SABRS to receive the correct dates for Accounts
Payable recognition. Although we did not verify this system change, we commend the quick action
ofDFAS to improve the Marine Corps' compliance with GAAP.

        iv. Mechanization of Contract Accounting System (MOCAS). The MOCAS system is a
contract payment system that processes a significant dollar volume of transactions for all major DoD
Components. Its internal controls governing the processing of payment entitlement and the related
disbursement controls delay the recognition of Accounts Payable beyond the date goods or services
are received. Therefore, Accounts Payable balances reported in the DoD financial statements do not
include contract payables that should be recognized in accordance with GAAP and these amounts
may be material. DFAS is currently engaged in a project to improve the accuracy of its estimates of
the unrecognized Accounts Payable related to the MOCAS system.

       v. Standard Army Finance Information System CSTANFINS) and Standard Operation
and Maintenance Army Research and Development System (SOMARDS). The Army uses
STANFINS and SOMARDS to process and account for Accounts Payable. The Army's
disbursing system, STANFINS Redesign Subsystem One, transmits disbursement transaction
information to these accounting systems. When the transmitted disbursement information does
not match an existing Accounts Payable in the accounting systems, the transmitted information is
used by these systems to concurrently recognize an Accounts Payable and its liquidation.
Recording Accounts Payable concurrently with recording the related disbursements indicates the
Accounts Payable are not recognized on a timely basis. In the alternative, the original Accounts
Payable that are not matched to the disbursements remain unliquidated and overstated after
recording the disbursements. DFAS officials discussed this condition in connection with
vendor payments and acknowledged that Accounts Payable recognition and reporting are not in
compliance with GAAP. No effective compensating internal controls have been designed to
overcome this deficiency.

        vi. Accounts Payable Related to Closed Appropriations. The Air Force financial statements
include past due Accounts Payable attributable to closed appropriations. These amounts may reflect
Accounts Payable that no longer exist and are not a valid liability. Accounting personnel do not
make regular reviews to identify such balances and determine their validity. When Accounts
Payable related to closed appropriations are not valid, misstatements occur in the financial statement
balances for Accounts Payable, status of obligations, and other reported amounts. Without an
internal control to identify and resolve such balances, there is an increased risk that such
misstatements exist in the Air Force financial statements.
        vii. Defense Logistics Agency (DLA). The Defense Energy Supply Center (DESC) began a
review in January 2006 because it recognized an unusual build up in its Accounts Payable balances.
At the time of our audit, a review of$55.1 million of such Accounts Payable resulted in removing
$42.3 million of invalid balances. Also, the DLA Defense Fuel Automated Management System
processes Accounts Payable for the purchase of various services. Its prevalidation process
recognizes Accounts Payable for DLA financial statement reporting prior to the actual date of receipt
or acceptance of services. DLA has not implemented internal controls to correct or compensate for
these weaknesses in recognizing Accounts Payable on a timely basis. .

        In addition, the Business Systems Modernization software processes and accounts for
payments of billings related to construction projects for DLA. Delays in Accounts Payable
recognition for these billings until they are matched to a valid purchase order and obligation results
in unrecorded Accounts Payable at financial statement reporting dates. Until DLA designs and
implements internal controls to prevent the accumulation of significant amounts of invalid Accounts
Payable in DESC records, recognize Accounts Payable for construction projects on a timely basis,
and prevent the premature recognition of Accounts Payable for purchased services, there is a
significant risk that its financial statements are misstated.

Conclusion

Until corrected, the control deficiencies discussed in this memorandum result in more than a remote
likelihood that a material misstatement in the financial statements of DoD could occur and not be
detected. They prevent DoD from having assurance that the Accounts Payable balances in its
financial statements are reported in accordance with generally accepted accounting principles.
Because of the likelihood of material misstatement, DoD must continue to report its material
weakness in internal controls for Accounts Payable until it makes the necessary improvements. DoD
managers will not be able to obtain a cost-effective audit of the Department's financial statements or
an individual line item, such as Accounts Payable, until they implement appropriate internal controls.


                                        By direction of the Deputy Inspector General for Auditing:


                                             fJ~              fl.mwt
                                           f6r- Paul J. Granetto, CPA
                                      Assistant Inspector General and Director
                                        Defense Financial Auditing Service
Team Members
   The Department of Defense Office of the Deputy Inspector General for Auditing,
   Defense Financial Auditing Service prepared this report. Personnel of the Department
   of Defense Office of Inspector General who contributed to the report are listed below.

   Paul J. Granetto
   Patricia A. Marsh
   Amy Frontz
   M. James Herbic
   Jeff Hunter
   Steven K. Kurker
   Christopher S. Yablonski
   Jonathan Rogers
   Erin Hart
